No. 20-5279

IN THE

~upreme Ql:ourt of tbe llniteb ~tate~
WILLIAM DALE WOODEN, PETITIONER
V.

UNITED STATES OF AMERICA

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
5,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 28, 2021.

Colin Casey i/Jgan
Wilson-Epes Printing Co., Inc.

